<html>
<title> - THE ADMINISTRATION'S VIEW ON THE STATE OF CLIMATE SCIENCE</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





       THE ADMINISTRATION'S VIEW ON THE STATE OF CLIMATE SCIENCE

=======================================================================

                                HEARING

                               before the
                          SELECT COMMITTEE ON
                          ENERGY INDEPENDENCE
                           AND GLOBAL WARMING
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 2, 2009

                               __________

                           Serial No. 111-13


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





             Printed for the use of the Select Committee on
                 Energy Independence and Global Warming

                        globalwarming.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
62-520                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                SELECT COMMITTEE ON ENERGY INDEPENDENCE
                           AND GLOBAL WARMING

               EDWARD J. MARKEY, Massachusetts, Chairman
EARL BLUMENAUER, Oregon              F. JAMES SENSENBRENNER, Jr., 
JAY INSLEE, Washington                   Wisconsin, Ranking Member
JOHN B. LARSON, Connecticut          JOHN B. SHADEGG, Arizona
HILDA L. SOLIS, California           GREG WALDEN, Oregon
STEPHANIE HERSETH SANDLIN,           CANDICE S. MILLER, Michigan
  South Dakota                       JOHN SULLIVAN, Oklahoma
EMANUEL CLEAVER, Missouri            MARSHA BLACKBURN, Tennessee
JOHN J. HALL, New York
JERRY McNERNEY, California
                                 ------                                

                           Professional Staff

                   Gerard J. Waldron, Staff Director
                       Aliya Brodsky, Chief Clerk
                 Thomas Weimer, Minority Staff Director













                            C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, opening statement...............     1
    Prepared statement...........................................     3
Hon. F. James Sensenbrenner, Jr. a Representative in Congress 
  from the State of Wisconsin, opening statement.................     5
Hon. John Salazar, a Representative in Congress from the State of 
  Colorado, opening statement....................................     7
    Prepared statement...........................................     9
Hon. John Shadegg, a Representative in Congress from the State of 
  Arizona, opening statement.....................................    13
Hon. Candice Miller, a Representative in Congress from the State 
  of Michigan, opening statement.................................    14
Hon. Jay Inslee, a Representative in Congress from the State of 
  Washington, opening statement..................................    15
Hon. John Sullivan, a Representative in Congress from the State 
  of Oklahoma, opening statement.................................    16
Hon. Earl Blumenauer, a Representative in Congress from the State 
  of Oregon, prepared statement..................................    17
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, prepared statement.........................    62

                               Witnesses

John Holdren, Director, Office of Science and Technology Policy, 
  Executive Office of the President..............................    19
    Prepared statement...........................................    22
    Answers to submitted questions...............................    73
Jane Lubchenco, Under Secretary for Oceans and Atmosphere, 
  Administrator of the National Oceanic and Atmospheric 
  Administration, U.S. Department of Commerce....................    33
    Prepared statement...........................................    40
    Answers to submitted questions...............................    80

 
       THE ADMINISTRATION'S VIEW ON THE STATE OF CLIMATE SCIENCE

                              ----------                              


                      WEDNESDAY, DECEMBER 2, 2009

                  House of Representatives,
            Select Committee on Energy Independence
                                        and Global Warming,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:04 a.m., in room 
B-318, Rayburn House Office Building, Hon. Edward J. Markey 
(chairman of the committee) presiding.
    Present: Representatives Markey, Herseth Sandlin, Salazar, 
Inslee, Sensenbrenner, Shadegg, Miller, Sullivan, Capito, and 
Blackburn.
    Staff Present: Ana Unruh Cohen, Jonah Steinbuck.
    The Chairman. Good morning, and welcome to the Select 
Committee on Energy Independence and Global Warming.
    For many Members of Congress and the public, the concern 
about global warming may seem like a relatively new 
development. In fact, scientists, including those advising the 
U.S. Government, have issued warnings about the rising 
concentrations of carbon dioxide in the atmosphere throughout 
the last four decades.
    After a report from his science advisory committee, 
President Lyndon Johnson noted in a 1965 special address to 
Congress that, quote, a steady increase in carbon dioxide from 
the burning of fossil fuels has altered the composition of the 
atmosphere.
    In 1978, Robert White, the first administrator of the 
National Oceanic and Atmospheric Administration, warned that 
carbon dioxide emissions can have consequences for climate that 
pose a considerable threat to future society. More recently, 
the National Academy of Sciences found in a 2001 report 
requested by President Bush that, quote, global warming could 
well have serious adverse societal and ecological impacts by 
the end of this century.
    In a report issued earlier this year, U.S. science agencies 
concluded that climate changes are underway in the United 
States and are projected to grow. Administration scientists 
once predicted the impacts of global warming. Now they can 
confirm them. And unfortunately, families from New Orleans to 
Alaska are living with the harsh consequences.
    Given the upcoming international climate conference in 
Copenhagen, and the continuing work on domestic clean energy 
legislation in Congress, an update on the administration's view 
of the state of climate science is timely. In 2007, the 
Intergovernmental Panel on Climate Change found in their 
comprehensive assessment that global warming is unequivocal and 
that this warming is primarily due to human activities.
    This decade has been the hottest in recorded history, with 
all of the years since 2001 being in the top 10 hottest. This 
summer, the ocean was the warmest in NOAA's 130-year record. 
The extent of Arctic summer sea ice for the past few years has 
shrunk dramatically compared to the previous two decades, with 
the reduction roughly three times the size of Texas.
    We must be aware that as the climate system warms, we risk 
passing certain tipping points of rapid and irreversible 
change. In the United States, the effects are evident. Daily 
record high temperatures are being broken twice as often as 
daily lows. Our farms are threatened by rising temperatures, 
water scarcity, and pests. In the Northeast, extreme rainstorms 
and the risk of flooding have increased. In Alaska, villages 
are finding the land they call home literally melting out from 
underneath them as the permafrost thaws. In the West, the 
shrinking mountain snow pack and increasing droughts strain our 
water resource system.
    Fortunately, after decades of warnings, President Obama is 
partnering with Congress to realize a new vision for America, 
an America freed from dependence on foreign oil and thriving as 
a leader of the new clean energy economy. The American Recovery 
and Reinvestment Act included more than $80 billion for clean 
energy investments to jump-start our economy and generate new 
clean energy jobs. The Cash for Clunkers program took gas 
guzzlers off the road. Fuel economy standards were raised for 
model year 2011 cars and trucks, saving drivers money and 
spurring companies to develop more efficient, affordable 
vehicles.
    In June, the House passed the Waxman-Markey Clean Energy 
and Security Act. This is legislation that will put us on a 
pollution cutting path and, at the same time, create millions 
of new jobs, making America the global leader of the clean 
energy economy. The act will also create a National Climate 
Service that will provide decision makers with vital climate 
science information.
    As we move forward, we must continue to stay abreast of the 
most recent findings and to ground our policy in the latest 
climate science.
    Our witnesses today, Dr. John Holdren, the President's 
science adviser, and Dr. Jane Lubchenco, administrator of the 
National Oceanic and Atmospheric Administration, will help us 
do that.
    Now I would like to turn and recognize the ranking member 
of the committee, the gentleman from Wisconsin, Mr. 
Sensenbrenner.
    [The prepared statement of Mr. Markey follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Sensenbrenner. Well, thank you very much, Mr. Chairman.
    And what we have just heard from the Chairman is a case of 
denial on what has happened recently. Sound science depends on 
sound policy--or sound science policy depends on sound science. 
When the science itself is politicized, it becomes impossible 
to make objective political decisions. Scientific policy 
depends upon absolute transparency. As policymakers, we should 
all be concerned when key climate scientists write in private 
correspondence that they found a trick to hide the decline in 
temperature data documented in climate studies.
    Less than 2 weeks ago, some 160 megabytes of data, 
containing over 1,000 e-mails, including one from today's 
witness, Dr. John Holdren, and 2,000 other documents from the 
Climate Research Unit at the University of East Anglia in the 
UK were posted on the Internet. While the e-mails don't 
undermine everything we know about climate change, their 
contents are shocking. And in the words of Clive Cook, senior 
editor of the Atlantic Monthly, a columnist for National 
Journal, and a commentator for Financial Times, the stink of 
intellectual corruption is overpowering. The temperature 
records from the climate research are one of only three major 
data sets which considerably overlap and which have been used 
as the bedrock for the assessments by the Intergovernmental 
Panel on Climate Change and the United States Global Change 
Research Program.
    The data set in question is the basis for virtually all 
peer-reviewed literature. The documents show systematic 
suppression of dissenting opinion among scientists in the 
climate change community, intimidation of journal editors and a 
journal who would deign to publish articles questioning the so-
called consensus, manipulation of data and models, possible 
criminal activity to evade legitimate requests for data and the 
underlying computer codes filed under Freedom of Information 
Acts, both in the U.S. and in the United Kingdom, and 
demonstrates that many climate scientists and proponents of 
climate change legislation have vested interests, a clear 
conflict of interest.
    Those with the most to gain from climate change have tried 
to dismiss these e-mails as out of context. So I am going to 
read a few examples.
    From Kevin Trenberth, quote, the fact is that we can't 
account for the lack of warming at the moment, and it is a 
travesty we can't. The series data shows that there should be 
even more warming, but the data are surely wrong. Our observing 
system is inadequate, unquote.
    From Phil Jones, quote, I have just completed Mike's nature 
trick of adding in the real temps to each series for the last 
20 years--that is from 1981 onwards--and from 1961 for Keith's 
to hide the decline, unquote.
    From Andrew Manning, quote, I am in the process of trying 
to persuade Siemens Corporation to donate me a little cash to 
do some CO<INF>2</INF> measurements here in the UK. Looking 
promising. So the last thing I need is news articles calling 
into question again observed temperature increases. I thought 
we had moved the database beyond this, but it seems like the 
skeptics are real diehards, unquote.
    From Keith Briffa, quote, I tried hard to balance the needs 
of the science and the IPCC, which are not always the same. I 
worried that you might think I give the impression of not 
supporting you well enough while trying to report on the issues 
and uncertainties, unquote.
    From Phil Jones, quote, I am getting hassled by a couple 
people to release the CRU station temperature data. Don't any 
of you three tell anybody that the UK has a Freedom of 
Information Act, unquote.
    From Michael Mann, quote, this was the danger of always 
criticizing the skeptics for not publishing in the peer-review 
literature. Obviously, they found a solution to that. Take over 
a journal. So what do we do about this? I think we have to stop 
considering Climate Research as a legitimate peer-reviewed 
journal. Perhaps we should encourage our colleagues in the 
climate research community to no longer submit to or cite 
papers in this journal. We also need to consider what we tell 
or request of our more reasonable colleagues who currently sit 
on the editorial board, unquote.
    From Phil Jones, quote, if anything, I would like to see 
climate change happen so the science could be proved right 
regardless of the consequences. This isn't being political; it 
is being selfish, unquote.
    Now, these e-mails show a pattern of suppression, 
manipulation, and secrecy that was inspired by ideology, 
condescension, and profit. They read more like scientific 
fascism than scientific process. They betray economic and 
ideological agendas that are death to disconforming evidence.
    Hopefully, this scandal is the end of declarations that the 
science is settled, and the beginning of a transparent 
scientific debate. The seriousness of this issue justifies 
additional consideration.
    The majority did not permit us to invite a witness to this 
morning's hearing, and therefore, I am requesting a minority 
day of hearings and am filing with the Chairman a letter signed 
by all six of the Republican members of this Select Committee, 
pursuant to rule 11 J 1 of the House of Representatives to have 
a minority day of hearings.
    And I yield back the balance of my time.
    The Chairman. I thank the gentleman very much.
    The hearing today is for the purpose of hearing from 
administration witnesses. In my 34 years here, whether it be a 
Democrat or Republican administration, I had no memory of 
another witness sitting with administration officials at the 
time of their testimony.
    Mr. Sensenbrenner. Would the gentleman yield?
    The Chairman. I will be glad to yield.
    Mr. Sensenbrenner. When I was Chairman of Judiciary 
Committee I did not allow anybody to sit with Cabinet-level or 
Cabinet-rank level witnesses, but there were other people who 
sat with administration witnesses and, in many cases, 
contradicted them, including witnesses that were proffered by 
the Democratic majority on the Judiciary Committee.
    The Chairman. Well, in the 15 years that I have chaired a 
committee here in the House, I have always offered as a 
courtesy to the Reagan administration, to the first Bush 
administration, and to the second Bush administration the 
courtesy of having their administration officials sit and make 
their presentation. And that is how I have conducted myself 
since 1981, chairing committees. And I extended that courtesy 
through three Republican administrations. So that is my own 
personal history.
    And I did not think it was appropriate to have another 
witness sitting with these representatives of President Obama, 
since I did not allow that to happen with President Reagan or 
the two Bush presidencies.
    But I will be more than willing to discuss future hearings 
with the gentleman and the minority if they would like.
    Let me now turn and recognize the gentlelady from South 
Dakota.
    Ms. Herseth Sandlin. Thank you, Mr. Chairman. I don't have 
an opening statement. I will reserve for questions.
    The Chairman. Thank you. Then let me recognize the 
gentleman from Colorado.
    Mr. Salazar. Well thank you, Mr. Chairman.
    Good morning. I am looking forward to hearing the testimony 
today. We have a complex problem before us today. And I am 
interested to hear where we are in the science. I also want to 
know what we can do better to adapt our communities and 
practices to prepare for the anticipated climate changes.
    The information found in the recently released report 
entitled, ``Global Climate Change Impacts in the United 
States,'' is quite comprehensive. However, I am glad to see 
that both of you in your testimony say that we need more 
regional-specific information to help decision makers plan in 
the future.
    Colorado and the Third Congressional District has rich 
agricultural resources and millions of acres of forest. We also 
depend in large part on a limited amount of water for our 
survival. I am concerned about how we can effectively prepare 
for the changes you predict. As I mentioned, water is one of 
the natural resources my district heavily depends on. While we 
have a lot of snow in the mountains, the valleys see very 
little water.
    I am very proud of the $5 million appropriation for the 
Arkansas Valley conduit that was approved this year. That is 
the first round of conduit funding, which will be used for the 
environment analysis and planning and design. The Arkansas 
Valley conduit is designed to provide clean drinking water to 
approximately 40 cities, towns, and water providers in the low 
Arkansas Valley. These communities are in dire need of a source 
of water that will help them comply with the Clean Drinking 
Water Act in a manner that they can afford. Every community 
that will receive water from the conduit is currently rated 
below the 85 percent level of average household income.
    The roots of the Arkansas Valley conduit stretch back to 
1962, when the conduit was authorized by Congress as part of 
the Fryingpan-Arkansas project. And the reason that I bring 
this up is it took over 45 years, close to 47 years, to get the 
funding for this critical project. And if it takes that long 
for something this critical, we need to better prioritize the 
needs and support for our communities.
    I am a farmer. Agriculture is the cornerstone of my life 
and also the district that I represent. In my district, we 
produce wheat, potatoes, barley, beef, and many other crops. 
Agriculture is one of the top three economies in the district. 
The demand to produce more food will only increase as the 
population increases. And according to the report I mentioned 
before, climate change has the potential to negatively affect 
growth and yield of many crops, as well as increase the 
populations and vigor of a variety of weeds and insect species. 
If this is true, how soon do we anticipate these changes and 
how do we accommodate them?
    We have already seen the effects of warmer weather and 
drought in our forests. Over 2 million acres of forest in 
Colorado are dead because of the mountain pine beetle. This 
epidemic will change the landscape of Colorado for decades. We 
need to manage our forests for resiliency in the future so that 
they can withstand the changes in weather.
    So I do look forward to your testimony today, and I want to 
thank you for being with us. I yield back.
    [The prepared statement of Mr. Salazar follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. Thank you. The gentleman's time has expired.
    The Chair recognizes the gentleman from Arizona, Mr. 
Shadegg.
    Mr. Shadegg. Thank you, Mr. Chairman. And I apologize. I 
have another hearing, so I will have to leave for a portion of 
my time here. But I want to begin by noting something that I 
think everyone in the room knows, but nobody wants to 
acknowledge. It is that there is an elephant, a large elephant 
sitting in the middle of this room. You can ignore if you like. 
Members of the minority can ignore it if they like. Members of 
the majority can ignore it if they like. Members of the staff 
or the press or the audience can ignore it if they like. But 
that elephant is the credibility of the entire scientific 
community, which has told us that the science behind manmade 
global warming is resolved, make no mistake about it.
    When you read in the e-mails, which have been made public 
recently, that that science was politicized, that its 
proponents were unwilling to release their data, that they were 
unwilling to have their theories tested, that they were 
threatened by anyone and everyone who dared to challenge them, 
when you realize they were that insecure, then you have to 
understand that their credibility, the entire credibility of 
the theory is placed on the line.
    Now, that does not mean it cannot be rehabilitated. But it 
is interesting to me, those who have not simply accepted the 
claim of manmade global warming, man-caused global warming have 
been called deniers. I would suggest that when the White House 
reads of these e-mails and the Press Secretary for the White 
House steps forward and says they mean nothing, the science is 
already resolved, maybe the term deniers best applies to those 
in that position.
    Public policy is a difficult business. It is hard for those 
of us who sit on this side of the dais to make decisions and to 
make those decisions in the best interests of the Nation. At 
times we are asked to call upon our citizens to sacrifice, to 
pay more in taxes, to lose jobs, to give up lifestyles, to pay 
more for energy. We simply cannot do that when the evidence we 
are supposed to be basing our decisions upon has been clearly 
politicized, when there is a grave question about its 
credibility.
    Until we address the evidence--I am sorry, until we address 
the elephant in the center of this room and resolve the 
questions raised by the appalling e-mails which have been made 
public, it is impossible for this Congress to set public policy 
in this area and to make the people of America accept and give 
of the sacrifices they will have to give to make the changes 
called for by the legislation that is before this Congress.
    Anyone who thinks that those e-mails are insignificant, 
that they don't damage the credibility of the entire movement, 
is naive. We cannot expect people in a free society to make 
sacrifices on anything other than hard evidence. Here that hard 
evidence has to be hard evidence that in fact global warming is 
caused by man and that the sacrifices called for in the 
legislation are necessary. These e-mails repeatedly have shown 
that the scientists involved and who authored them, the 
scientists who are behind global warming or the argument that 
global warming is caused by manmade factors, the e-mails 
demonstrate that they are afraid to reveal the facts, that they 
have been unwilling to have their theories tested, that they 
have been unwilling to provide their data, and they are 
unwilling to have their theories openly challenged.
    Now because their own defenses and justifications for 
hiding these facts and their data has changed so many times, we 
now learn that maybe the data does not even exist. It is 
critical for this Congress to find out and to get to the bottom 
of the question of what the elephant in the room is and what 
the real science is and whether money and politics has eroded 
the credibility of that science.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. The gentleman's time has expired.
    The Chair recognizes the gentleman from Oklahoma, Mr. 
Sullivan.
    Excuse me. I did not see the gentlelady from Michigan.
    The Chair recognizes the gentlelady from Michigan, Mrs. 
Miller.
    Mrs. Miller. Thank you, Mr. Chairman.
    I appreciate you having this hearing. I think it is an 
interesting title of the hearing. The state of the climate 
science I think is particularly interesting in light of what is 
happening. And I would like to associate myself with the 
remarks made by the ranking member and the others on the 
minority side here of the panel.
    I come from the State of Michigan. We have the highest 
unemployment in the Nation. Everybody is well aware of that. As 
well, we derive about two-thirds of our electricity from coal. 
And for these reasons and others, I really looked very closely 
at the cap-and-trade legislation and finally decided that it 
would just be so devastating for Michigan's economy and our 
Nation that I could not support it.
    But you know, we had been told that we had to pass this 
legislation because the debate was over; the science was 
absolute; the science is incontrovertible about climate change, 
and regardless of what it means economically to us, we need to 
do this to protect our environment and our very way of life. 
And you know, particularly hard hit with the cap-and-trade 
would be States like Michigan.
    In fact, the Detroit News editorialized that the cap-and-
trade legislation, as they said, would be a dagger through the 
heart of Michigan's economy. So when I saw this notice, this 
committee hearing notice, I was very enthusiastic because I 
thought we were going to be able to talk this morning about 
what many people are calling Climategate, which I think is an 
appropriate analogy, because it is totally a coverup, what is 
happening.
    And the ranking member, I won't go through you any of the 
e-mails, I have a list of them here as well, but he certainly 
has articulated many of them already. But I thought we were 
going to have a hearing about that. And if we are not, I would 
mention that I had also respectfully sent a letter earlier this 
week to the chairman and the ranking member to ask this 
committee to have a hearing. I think it is important that the 
committee investigate these e-mails and what has happened in 
Climategate.
    I think transparency is the most appropriate thing. And I 
think it is very important that we have transparency and that 
we look at these things, because certainly the central argument 
about manmade--manmade--climate change is certainly in 
question. I think the science is not settled, and the debate is 
raging around the United States and around the globe right now, 
particularly on the eve of Copenhagen.
    And I would simply just mention one other thing, if I 
could, Mr. Chairman. We did have a hearing just a couple months 
ago about a dozen fraudulent letters that were sent during the 
cap-and-trade legislation. And I thought that was an 
appropriate thing. But certainly if we could have a hearing 
about a dozen fraudulent letters, we could have a hearing in 
this committee about Climategate.
    And thank you, and I yield back.
    The Chairman. Thank you. The gentlelady's time has expired.
    The Chair recognizes the gentleman from Washington State, 
Mr. Inslee.
    Mr. Inslee. Thank you.
    I understand that those people who have been refusing to 
accept science for years are enjoying their moment talking 
about language from some e-mails that were taken out of 
context. I understand their enjoyment to continue to deny 
obvious facts.
    And if you could take those e-mails and chop them up and 
put them in a C-130 and sprinkle them over the Arctic and stop 
the Arctic from melting, that would be a good thing, but that 
won't happen. If you could take those e-mails and chop them up 
into fairy dust and sprinkle them over the Greenland ice cap 
and stop the accelerated melting going on there, that would be 
a good thing, but that won't happen. And if you could take 
those e-mails and chop them up and sprinkle them over the 
oceans and stop the incredible ocean acidification that is so 
damaging, that would be a wonderful thing, but that won't 
happen.
    The fact of the matter is plain and clear for anyone who is 
willing to dispassionately look at the evidence. And I would 
encourage, for those who want to look at the most recent 
evidence on this, to take a look at a group called the 
Copenhagen Diagnosis. They are found at 
www.Copenhagendiagnosis.com. It is an update of the IPCC 
information. And the update is, since 2007, the sequela of both 
ocean acidification and global climate change have been either 
accelerating or at least worse than was predicted in the IPCC 
report.
    The global deniers are right; the 2007 IPCC report was not 
entirely accurate. It was not entirely accurate because this 
problem is worse than the last IPCC report indicated. Surging 
greenhouse gases are worse than predicted. Recent global 
temperatures demonstrate human-based warming. The acceleration 
of melting ice caps in the Arctic is worse than expected. The 
rate of decline in glaciers is worse than expected. The 
disappearance of the Arctic summer ice is worse than expected. 
The current sea level rise estimates are worse than expected in 
the IPCC 2007 report. So the point of the current science is 
that what we had in 2007 is indeed out of date; this problem is 
worse than expected.
    And I will just comment on one thing that I learned. 
Sometimes you can learn things from silence as well as people 
talking. I was at my old school at the University of Washington 
last week, and we were talking about this issue. And this young 
man stood up, and he was a global climate change denier. And he 
was having a field day with some e-mail language that he 
thought showed some massive conspiracy by the Trilateral 
Commission or something to take over the earth.
    And I just said, look, if you are right and if there is no 
global warming, if you are so right, what are you going to do 
about ocean acidification? What do you say about that? And he 
was silent. And that silence speaks volumes. If people over 
here want to deny clear science about global warming, they 
cannot deny the fact that the oceans are becoming acidified, 
that no reputable science anywhere in the world recognizes it 
is happening caused by CO<INF>2</INF> going into the atmosphere 
and going into solution and acidifying our oceans, so I would 
just say the science is clear. I wish it was otherwise. Life 
would be easier. But this is the challenge of the ages. Thank 
you.
    The Chairman. The gentleman's time has expired.
    The gentleman from Oklahoma, Mr. Sullivan, is recognized.
    Mr. Sullivan. Thank you, Mr. Chairman.
    I appreciate you holding this hearing today, but 
unfortunately, we were not allowed a minority witness.
    Yesterday I was pleased to sign onto a letter by Ranking 
Member Sensenbrenner and my Republican colleagues on this 
committee requesting a day of hearings to consider the 
scientific evidence for climate change; the observed and 
anticipated impacts of climate change; and the key areas of 
further research. I hope you will honor this request, as we are 
on the eve of the Copenhagen climate conference.
    In light of the recent disclosure of e-mails between 
several prominent climatologists revealing possible deceitful 
manipulation of important climate data uncovered at the world's 
leading climate change unit at the University of East Anglia in 
England, I think it is imperative that we launch an 
investigation into this issue and reexamine all the scientific 
evidence surrounding climate change.
    With the United Nations Climate Change Conference in 
Copenhagen set to begin in less than a week, we need to have 
all the facts before us as we consider whether this is in the 
United States' best interests to agree to a binding 
international climate treaty.
    For the record, I am opposed to any climate treaty that 
does not recognize the right of every country to protect its 
own national energy interests and would place the United States 
at a competitive economic disadvantage worldwide.
    I am interested in learning from our panel today whether or 
not they would support an independent investigation into the 
climate change unit e-mails and whether or not these e-mails 
raise concerns about the integrity of the scientific process.
    I yield back my time.
    The Chairman. Great. The gentleman's time has expired.
    All time for opening statements from the members has been 
completed.
    [The prepared statement of Mr. Blumenauer follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. We will now turn to our very distinguished 
witnesses.

 STATEMENTS OF THE HONORABLE JOHN HOLDREN, DIRECTOR, OFFICE OF 
    SCIENCE AND TECHNOLOGY POLICY, EXECUTIVE OFFICE OF THE 
 PRESIDENT; AND THE HONORABLE JANE LUBCHENCO, UNDER SECRETARY 
   FOR OCEANS AND ATMOSPHERE, ADMINISTRATOR OF THE NATIONAL 
  OCEANIC AND ATMOSPHERIC ADMINISTRATION, U.S. DEPARTMENT OF 
                            COMMERCE

    The Chairman. Our first witness is Dr. John Holdren. He 
serves as assistant to President Obama for science and 
technology. He is the director of the White House Office of 
Science and Technology Policy, and cochair of the President's 
Council of Advisers on Science and Technology. He was a 
professor at Harvard. He was the director of the independent 
nonprofit Woods Hole Research Center. He is a member of the 
National Academy of Sciences. He has received the MacArthur 
Foundation prize, the Genius Award.
    We welcome you, sir, before our committee.
    Whenever you are ready, please begin.
    Mr. Sensenbrenner. Mr. Chairman, I would request that the 
witnesses be sworn before they testify today.
    The Chairman. The committee will stand in brief recess.
    [Recess.]
    The Chairman. The ranking member of the committee has made 
a request to have the witnesses sworn in.
    The Chair has a right to, at his discretion, to make that 
determination. And I do not think it is necessary. I think that 
the administration is going to testify truthfully before our 
committee today. And we will operate under that premise.
    And we will begin the hearing with the testimony of Dr. 
Holdren, the President's science adviser.

            STATEMENT OF THE HONORABLE JOHN HOLDREN

    Mr. Holdren. Thank you, Chairman Markey, Ranking Member 
Sensenbrenner, members of the committee.
    I do thank you for inviting me to testify on this timely 
and important topic today. I had planned to summarize in my 
brief oral statement the written statement that I provided to 
the committee addressing current and projected impacts of 
climate change, and also climate science research activities, 
needs, and products, as the letter of invitation requested.
    But given the emphasis in some of the opening comments on 
the e-mails, I am going to divert from that program and say a 
few words about the e-mails, and then finish with the 
concluding part of my original oral statement.
    The e-mails are mainly about a controversy over a 
particular data set and the ways a particular small group of 
scientists have interpreted and displayed that data set. It is 
important to understand that these kinds of controversies and 
even accusations of bias and improper manipulation are not all 
that uncommon in science, in all branches of science. The 
strength of science is that these kinds of controversies get 
sorted out over time as to who is wrong, who is right, and how 
much it matters by the process of peer review and continued 
critical scrutiny by the knowledgeable community of scientists.
    Of course, openness in sharing of data and methods is very 
important to this process. And as I think you all know, this 
administration is a strong proponent of openness in science and 
in government. And Administrator Lubchenco will have some 
things to say about public access to the climate data 
maintained by her agency and maintained by other agencies in 
the United States.
    In this particular case, the data set in question and the 
way it was interpreted and presented by these particular 
scientists constitute a very small part of the immense body of 
data and analysis on which our understanding of the issue of 
climate change rests.
    The question being addressed by these data was, have there 
been natural periods of warming in the past, in the last 1,000 
or 2,000 years in particular, that have been stronger than the 
episode now being experienced? That is an interesting question. 
And because of the controversy around it at the time most of 
these e-mails were written, that is in the early 2000s, the 
National Academy of Sciences undertook a thorough review of all 
of the relevant data sets and all of the methods of analysis, 
not just the data set used by these particular authors or the 
methods used by these particular authors.
    The National Academy's report on this matter was published 
in 2006, and it concluded that the preponderance of available 
evidence points to the conclusion that the last 50 years have 
been the warmest half century in at least the last 1,000 years 
and probably much longer.
    There is and there will remain after the dust settles in 
this current controversy a very strong scientific consensus on 
the key characteristics of the problem. Global climate is 
changing in highly unusual ways compared to long experienced 
and expected natural variations. The unusual changes match what 
theory and models tell us would be expected to result from the 
very changes in the atmosphere that we know have been caused by 
human activities, above all burning fossil fuels and tropical 
deforestation.
    Significant impacts on human well-being from these changes 
in climate are already being experienced. And continuing with 
business as usual in the fossil fuel burning and tropical 
deforestation activities that are the largest contributors to 
these changes in the atmosphere is highly likely to lead to 
growth of the impacts to substantially unmanageable levels. The 
details in support of those propositions are in my written 
testimony.
    Let me turn to the closing part of my remarks. I have tried 
to indicate in the written testimony, and here, that we in fact 
know a great deal about global climate change, what its causes 
are, how it works, what its impacts are and are likely to 
become. But of course, there is more to learn. And the Federal 
Government is doing a lot in support of the research needed to 
learn more and its translation of that research into products 
our society can use to better cope with climate change. But 
there again, we need to do more.
    With that said, I emphasize again that, in my judgment and 
that of the great majority of other scientists who have 
seriously studied this matter, the current state of knowledge 
about it, even though incomplete, as science always is, and 
even though controversial in some details, as science almost 
always is, is sufficient to make clear that failure to act 
promptly to reduce global emissions to the atmosphere of carbon 
dioxide and other heat-trapping substances is overwhelmingly 
likely to lead to changes in climate too extreme and too 
damaging to be adequately addressed by any adaptation measures 
that can be foreseen.
    The United States, as the largest contributor to the 
cumulative additions of anthropogenic, that is human-caused, 
greenhouse gases to the atmosphere since the beginning of the 
Industrial Revolution, and still today the second largest 
emitter after China, and as the world's largest economy and 
preeminent source of scientific and technological innovation, 
we have the obligation and the opportunity to lead the world in 
demonstrating that the needed emissions reductions can be 
achieved in ways that are affordable and consistent with 
continued economic growth; that create new jobs; and that bring 
further co-benefits in the form of reduced oil import 
dependence and improved air quality.
    President Obama is going to Copenhagen to underline that 
his administration is fully committed to assuming this 
leadership role. The administration obviously will need the 
support of the Congress in delivering on this promise.
    And I would like to thank you, Chairman Markey, and this 
committee for your own leadership in this critically important 
domain.
    I thank you as well for your attention.
    [The statement of Mr. Holdren follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Chairman. Thank you, Dr. Holdren, very much.
    Our second witness is Dr. Jane Lubchenco. Dr. Lubchenco is 
the Under Secretary of Commerce for Oceans and Atmosphere, and 
the administrator of the National Oceanic and Atmospheric 
Administration. She has been a distinguished scholar on these 
issues. She is one of the most highly cited ecologists in the 
world, a member of the National Academy of Sciences, and 
similarly a recipient of the MacArthur Fellowship, as was Dr. 
Holdren.
    We welcome you, Dr. Lubchenco. And whenever you are ready, 
please begin.

           STATEMENT OF THE HONORABLE JANE LUBCHENCO

    Ms. Lubchenco. Thank you, Chairman Markey, Ranking Member 
Sensenbrenner, members of the committee.
    I greatly appreciate the opportunity to testify today. I 
appreciate your interest in the science of climate change and 
the spectrum of climate sciences and services needed in this 
country and abroad to make critical decisions for now and for 
the future.
    As President Obama said to the National Academy of 
Sciences, science is more essential for our prosperity, our 
security, our health, our environment, and our quality of life 
than it has ever been before.
    As head of NOAA, one of the Nation's premiere science 
service and stewardship agencies, with responsibilities for 
both oceans and atmosphere, I strongly support a focus on 
science-based decision-making. Science can help inform the 
understanding of opportunities and challenges presented by 
climate change.
    Through sustained Federal and extramural partnerships and 
collaborations, the Nation has made very significant progress 
in our understanding of climate change. The core capabilities 
needed to understand the state of the climate and make 
projections about future climate and associated impacts include 
integrated and comprehensive observing systems on land and the 
oceans, the atmosphere and space; research into the physical 
system and its interconnectedness to the human ecological and 
biogeochemical systems, modeling from intra-seasonal to multi-
decadal to centennial time scales; and a means to assess and 
communicate the climate information about current and future 
impacts.
    Three entities, the Intergovernmental Panel on Climate 
Change, the IPCC, the U.S. Global Change Research Program, and 
the National Academy of Sciences have all published several 
peer-reviewed syntheses of the latest climate science findings 
and associated impacts. NOAA scientists have played a 
significant role in all of these assessments. For example, NOAA 
played a lead role in the development of the USGCRP's Global 
Climate Change Impacts in the United States report, a landmark 
assessment report that Dr. Holdren and I proudly announced just 
this last June. And NOAA scientists made up 73 percent of the 
Federal authors in the IPCC's Fourth Assessment Report for 
working group one, the basis of the physical understanding of 
climate. Since the IPCC process began in the late 1980s, a 
wealth of global scientific information has cumulatively 
provided stronger and stronger evidence that the earth is 
warming and that humans are primarily responsible.
    As stated in the Global Change Impacts 2009 report, global 
warming is unequivocal and is primarily human induced. This 
warming can be seen in increases in global average surface air 
and ocean temperatures, widespread melting of snow and ice, 
rising sea levels, and changes in many other climate-related 
variables and impacts. Most of the observed increases in global 
temperatures since the mid-20th century are due primarily to 
human-induced concentrations in heat-trapping greenhouse gases.
    When I served on the very first National Academy of 
Sciences study on policy implications of global warming in the 
1980s, we talked about what human-induced climate change might 
look like at some point in the future. Today we know that it is 
happening now. We are already seeing the effects of climate 
change on our landscapes, our neighborhoods, our farms, as well 
as our forests, oceans and mountains. We are able to measure 
these changes through significant advances in our observing 
systems over the last 20 to 30 years, many of which are the 
result of NOAA's responsibility and innovation, and through 
collaborative global and national efforts to provide systematic 
and widespread monitoring of the climate system and associated 
environmental and social changes.
    As a result, we have a much better understanding of present 
and expected impacts of climate change. Widespread climate 
change impacts are occurring now and are expected to increase. 
I emphasize that climate change is not a theory. It is a 
documented set of observations about the world.
    A key element of the U.S. Global Change Research Program 
emphasizes the importance of multiple independent analyses and 
data sets to quantify uncertainties. And therefore, we have the 
benefit of this policy when it comes to global change analyses. 
The NOAA data used in the IPCC report are openly available. 
They are used heavily in the IPCC results of temperature change 
similar to other major global data sets maintained by other 
U.S. agencies, such as NASA, and that maintained by other 
countries, such as the United Kingdom.
    So what do these data sets, what do these observations tell 
us about climate change? What do we know with certainty about 
trends to date, and what do we think is highly likely in the 
future?
    Global average surface temperature has risen by 1.5 degrees 
Fahrenheit since 1900 and is projected to rise another 2 to 
11.5 degrees by 2100. The current atmospheric carbon dioxide 
concentration is estimated at about 385 parts per million, 
which is higher than the highest point in the last 800,000 
years. Temperatures in the next couple of decades will be 
primarily determined by past emissions of greenhouse gases, but 
increases thereafter will be primarily determined by future 
emissions.
    Current observed global emissions of carbon dioxide 
emissions are beginning to exceed even the upper range of the 
2007 IPCC scenarios. There is strong agreement and much 
evidence that with current climate change mitigation policies 
and related sustainable development practices, global 
greenhouse gas emissions will continue to grow over the next 
few decades.
    As we continue to learn more about the climate system, I 
would like to reiterate the importance of looking at the earth 
system holistically, and understanding the interconnected 
nature of the ocean, atmosphere, and terrestrial systems. In 
particular, I would like to emphasize the importance of 
continuing our work to better understand the oceans and the 
potential impacts of climate change on them.
    I believe we have been championing the notion that we do 
not have, but urgently need, a strong focus on ecosystem-based 
science to inform decisions about adapting to climate change. 
An ecosystem-based approach also provides a broad array of 
potential tools for adaptation to climate change. Climate 
change interacts with and exacerbates other changes, ranging 
from overfishing to nutrient pollution to invasive species and 
habitat destruction. Removing one or several of these stresses 
is likely to enhance the resilience of the system to other 
stresses.
    Equally important is the need to acknowledge that we are 
likely to see surprises as human actions disrupt many 
fundamental biogeochemical and ecological processes. The now 
routine appearance of dead zones, areas of low or no oxygen on 
the coasts of Oregon and Washington during the summertime, is 
an example of an unanticipated change with possibly serious 
consequences.
    What does managing with the expectation of surprises look 
like? These are rich areas for future research and management 
alike.
    And finally, ocean acidification, which I call the equally 
evil twin of climate change, provides yet another major threat 
to coastal and ocean ecosystems. Getting a better handle on 
rates of change in ocean chemistry and the consequences to 
marine biota are high priorities. The seemingly persistent 
hypoxic events off the Pacific Northwest coast and this 
increasing corrosiveness of the water because of acidity are 
two examples of potential consequences from increasing 
CO<INF>2</INF> in the atmosphere.
    In addition, climate change can exacerbate other human-
induced stresses to aquatic systems, such as those caused by 
nutrient-loading invasive species and overfishing. As water 
resources are stressed, coastal areas are at increasing risk 
from sea level rise, inundation, and storm surge. North 
Atlantic fish populations are shifting north due to warmer 
oceans. And the threat to human health increases due to heat 
stress, air quality, and water-borne diseases.
    We must continue to enhance our scientific capacities, 
including research, observation, modeling, predictions, 
projections, and assessments to ensure that we are providing 
policy and decision makers, planners, and the public with the 
best possible science-based information to take on the 
challenges and opportunities posed by climate change.
    Thank you again, Mr. Chairman, for the opportunity to 
provide you with this review and update of the climate change 
science and ocean acidification. NOAA looks forward to 
continuing to provide national and international leadership, in 
collaboration with our partners, to ensure the solid foundation 
of climate science and service necessary to inform critical 
decisions about our future as a Nation and a global society.
    The Chairman. Thank you.
    Now I know you want to give us a brief demonstration of the 
science. And if you would like, could you please do that at 
this time? And then we will go to questions.
    Ms. Lubchenco. Okay. Thank you very much. I appreciate 
that.
    What I would like to do is just start here briefly and then 
move over and describe what I would like to share with you. I 
greatly appreciate the opportunity to not only present the oral 
testimony that I did but to provide a demonstration of some 
basic scientific concepts of ocean acidification.
    Ocean acidification is a global scale change in the basic 
chemistry of the oceans that is underway now as a direct result 
of the increases of CO<INF>2</INF> in the atmosphere. We are 
just beginning to understand the impacts of ocean acidification 
on life in the ocean. The moniker osteoporosis of the sea gives 
you a hint about some of its impacts.
    The basic chemistry of ocean acidification is understood 
and is not controversial. Here are three basic concepts: Number 
one, the chemistry of the oceans is dependent upon the 
chemistry of the atmosphere. More CO<INF>2</INF> in the 
atmosphere means more CO<INF>2</INF> in the ocean. Number two, 
as CO<INF>2</INF> from the air is dissolved into the ocean, it 
makes the oceans more acidic. The resulting changes, number 
three, in the chemistry of the oceans disrupt the ability of 
plants and animals in the sea to make shells and skeletons of 
calcium carbonate. And those chemical changes also dissolve 
shells that are already formed.
    So who in the oceans is affected by this? Any plant or 
animal that has a shell or a skeleton made of calcium 
carbonate. The hard parts of many familiar animals, such as 
oysters, clams, corals, lobsters, crabs such as those on this 
table, and those on the posters, are made of calcium carbonate. 
Many microscopic plants and animals at the base of the food 
chain also have calcium carbonate shells or skeletons. Some of 
these microscopic plants and animals are so abundant that when 
they die, they form massive deposits as they accumulate on the 
sea floor. The famed White Cliffs of Dover are a familiar 
example of calcium carbonate or chalk deposits, the skeletons 
of microscopic organisms.
    More acidic ocean water is corrosive to all of these 
calcium carbonate shells and skeletons, but let me focus on two 
quick examples. Number one, corals, that provide the 
fundamental structure for the world's treasured coral reefs, 
make their skeletons with calcium carbonate. More acidic ocean 
water makes it harder for corals to make their hard parts. If 
the ocean becomes too acidic, coral reefs may well disappear.
    Pteropods, number two, also called sea butterflies, are 
small-shelled animals about the size of a lentil bean. They 
occur in the millions off the coast of my home State of Oregon, 
but also throughout the world's oceans. They are a key or the 
primary source of food for juvenile salmon and many other fish 
around the world. Pteropods are particularly susceptible to 
increasingly acidic ocean water, as you will see in a moment. 
And I mention them in part because they illustrate the broader 
consequences of disruption of one part of the ocean ecosystem 
reverberating throughout other parts of the system, potentially 
affecting jobs, food security, tourism, and more.
    The severity of ocean acidification's impacts is likely 
dependent in part on the interaction of acidification with 
other environmental stresses, such as rising ocean 
temperatures, overfishing, and pollution from the land. Early 
evidence suggests that some species are better able to thrive 
in increased acidity, but the adaptability of most organisms to 
increased acidity is unknown.
    While our understanding of ocean acidification's impacts 
are still unfolding, the basic science of how the ocean is 
acidifying and the effects of increased acidity on some marine 
organisms is well known. And I would like to now demonstrate 
two of the basic concepts that I just mentioned. The ocean does 
a great service by absorbing tremendous amounts of carbon 
dioxide from the atmosphere. And in fact, the oceans have 
absorbed already about a third of the carbon dioxide that 
humans have contributed to the atmosphere over the last two 
centuries. This greatly reduces the impact of these heat-
trapping pollutant gases on the earth.
    But the carbon dioxide that is absorbed by oceans changes 
the chemistry of sea water, making it more acidic and more 
corrosive. When carbon dioxide dissolves in water, it forms 
carbonic acid, making the water more acidic. And to illustrate 
how this occurs, I brought a vessel of water, some common 
laboratory blue dye that changes color as the acidity in the 
solution changes, and some dry ice, which is simply compressed, 
frozen carbon dioxide. So I will first squirt some of this dye 
into the pitcher of water, swirl it around a little bit. 
Actually, I was going to do that in this, wasn't I? I will put 
it in here. Okay. I am just going to add a little more dye 
here. So this dye----
    The Chairman. Why don't you move that microphone over?
    Ms. Lubchenco. Do we need the microphone? Can I project 
without it? So I squirted a little bit of this dye into the 
water. You can see the blue color, which indicates this 
solution is a neutral level of acidity. And to demonstrate that 
the water absorbs carbon dioxide and that it then becomes more 
acidic, I am just going to drop a few chunks of this dry ice, 
frozen carbon dioxide, into the water. And you can see that the 
water changes color from blue to yellow, telling you that it 
has become more acidic.
    I have used tap water to demonstrate this concept, but the 
same phenomenon happens with sea water as with tap water. As it 
absorbs carbon dioxide, the carbon dioxide changes into 
carbonic acid and becomes more acidic. Over the last two 
centuries, the oceans have now become 30 percent more acidic 
because of the CO<INF>2</INF> that they have absorbed from the 
atmosphere.
    The second demonstration that I want to do for you 
involves--I am just going to set this aside. Thank you--
illustrates another very important principle. And that is that 
calcium carbonate, which is the basic building block of all of 
these calcifiers, oysters, clams, mussels, oysters, those are 
all made of the same stuff as chalk.
    Now, chalk in the olden days when I was growing up, most 
chalk that we would use in school was pretty pure calcium 
carbonate. Today other substances have been added to it to make 
it less dusty, less breakable, et cetera. So if you want to try 
this at home, you need to get almost pure chalk, which is what 
this is.
    What I am going to do is to show you what happens to chalk 
or other types of calcium carbonate when it is in regular 
water, when it is in water; half water-half vinegar solution, 
which is more acidic. As you know, vinegar is a weak acid. So I 
have combined water and vinegar there. And in this container, 
this is all vinegar. And so we have an increase in the amount 
of acidity from normal water; half water-half vinegar; and pure 
vinegar.
    And what I want you to notice is that when we put calcium 
carbonate, chalk, into the water, the same would happen if you 
put it into sea water, nothing happens. This is the way the 
ocean has been for a long time. Shells are fine in water. They 
don't dissolve.
    If you put chalk into half water-half vinegar, you can see 
some bubbling start to happen. That is the calcium carbonate 
that is beginning to dissolve in the weak acid and releasing 
carbon dioxide, bubbles of carbon dioxide.
    And if we put the chalk into pure vinegar, you can see that 
it starts bubbling much more quickly, much more rapidly, and is 
in fact dissolving much more rapidly. So here we have just a 
couple simple demonstrations that illustrate some very basic 
principles of what happens in oceans as they absorb the carbon 
dioxide that we have put into the atmosphere.
    I want to be crystal-clear here: The ocean will never be as 
acidic as vinegar is. I have used it here simply as a visual 
demonstration of what happens when you increase the level of 
acidity in a solution, what happens to calcium carbonate 
shells.
    To show you what actually happens in seawater, the seawater 
that is projected to be affected by increased CO<INF>2</INF> by 
the end of this century, I have a video clip. And I want to 
tell you a little bit what it shows and then start the clip.
    The first 10 seconds will show you a living, swimming 
pteropod, one of these small animals that I spoke of earlier. 
It is a beautiful creature about the size of a lentil bean. It 
is incredibly important as a food source for juvenile salmon, 
for mackerel, for pollock, for herring. They are very, very 
abundant in oceans throughout the world. After that, you will 
see what happens to a pteropod in seawater that is the same 
chemically as seawater that is projected by the end of the 
century.
    So let's start the video clip, if we could, please.
    And you will see first, once we get to it, impacts of ocean 
acidification. This is a swimming pteropod, a sea butterfly, 
swimming through the ocean. It is a small-shelled mollusk. This 
is the way it looks naturally. This is a pteropod shell that 
you will see time-lapse photos of what happens to the shell in 
seawater after 45 days projected for the year 2100.
    And, finally, this last clip is an animation illustrating 
from the year 1765 to 2100 the effect of increasing ocean 
acidity on the availability of the calcium carbonate mineral 
that pteropods, corals, and other organisms need to create 
their shells and skeletons. This is under a business-as-usual 
emissions scenario. And the change in color from purple to blue 
to yellow to red indicates increasing ocean acidity and 
decreasing availability of the calcium carbonate that is needed 
for shells and skeletons.
    Ocean acidity has increased by 30 percent since the 
beginning of the Industrial Revolution just over 200 years ago. 
This increase is 100 times faster than any change in acidity 
experienced by marine organisms for at least 20 million years.
    By the middle of this century, it is expected that coral 
calcification rates will decline by a third. And, at that 
point, erosion of corals will outpace new growth, making many 
coral reefs unsustainable. And by the year 2100, vast areas of 
the ocean, ultimately shown here in red, will have reached 
levels of acidification where pteropods, corals, and other 
important marine species will likely be severely compromised.
    So, in conclusion, our understanding of the impacts of 
ocean acidification is relatively new. Roughly two-thirds of 
the published research has come to light since 2004, which is 
why you probably haven't heard a lot about this issue.
    Thanks to Congress's action in passing the Federal Ocean 
Acidification Research and Monitoring Act, more attention will 
be given to this subject, particularly by scientists at NOAA 
and our partners at the National Science Foundation and in 
academia.
    Nonetheless, our fundamental scientific understanding of 
the basic chemistry of ocean acidification is sound. More 
CO<INF>2</INF> emitted into the atmosphere will increasingly 
lead to more CO<INF>2</INF> being absorbed by oceans. That will 
make oceans more acidic.
    And we are now beginning to understand the ocean's very 
capacity to absorb CO<INF>2</INF> from the atmosphere is being 
degraded by ocean acidification. These mechanisms can only be 
addressed by decreasing the amount of CO<INF>2</INF> that 
enters the atmosphere. The dramatic impacts that ocean 
acidification can and will have on marine ecosystems are clear.
    Thank you, Mr. Chairman.
    [The statement of Ms. Lubchenco follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Chairman. Thank you, Dr. Lubchenco, very much.
    I think you all brought us back to our sophomore and junior 
years in high school with some of these elemental explanations 
of how our planet works.
    And I think, to a very large extent, you have explained to 
us why just about everyone under the age of 25 wants us to do 
something about this problem, because they have recently been 
in science classes, in high schools, grammar schools, colleges 
all across the country. So they might be a little bit more 
familiar with this than people who are a little bit older. But 
I think that is why we call them the green generation, because 
they are reflecting the science that is being taught them today 
across our country and across the planet.
    So let me begin by recognizing myself for a round of 
questions, and I will begin with you, Dr. Holdren.
    Reconstruction of global temperatures over the last 
millennium show a dramatic rise over the course of this 
century. That has produced a so-called ``hockey stick'' graph, 
which is being questioned in some circles.
    Can you clarify for us the evidence that supports the 
significant rise in temperatures over the past century?
    Mr. Holdren. Sure.
    When one talks about reconstruction of past temperatures, 
one is talking about using a variety of indicators of what the 
temperature of the Earth was in the period before we had 
adequate thermometer measurements to meaningfully determine the 
average surface temperature of the Earth. Those methods include 
the analysis of bubbles in ice cores, analysis of tree rings, 
of fossil pollens, of sediments, and a variety of other so-
called paleoclimatological indicators.
    The hockey-stick metaphor came about when an analysis of 
the last 1,000-plus years of temperature, based on a variety of 
reconstructions available at that time from these different 
proxies--the ice cores, the tree rings, the sediments, the 
fossil pollens, and so on--came out with a temperature trace 
that, with some bumps, was relatively flat for most of the last 
1,000 years and then rose rather sharply in the 20th century, 
indeed, then, extremely sharply. So the thing had the shape of 
a hockey stick: a long relatively flat section and then a steep 
rise.
    This was the particular graphic that led to a considerable 
amount of controversy at the end of the 1990s and the beginning 
of the 2000s as to whether the particular approaches to 
developing that graph used by the group of scientists who did 
it and published it in the journal Nature in 1998 were 
absolutely correct. There was a flurry of activity at that 
time, a flurry of controversy about whether their statistical 
methods were right, whether they had used the right proxies, 
whether they had interpreted them correctly.
    It is important to understand that there were a variety of 
other research groups around the world doing proxy analyses and 
getting similar results--with some variations, because proxies 
are difficult to interpret. The different proxy measures 
typically relate to different specific areas in the world where 
the proxy indicators have been preserved. And you need to merge 
them together in a way that ultimately makes sense and is 
scientifically rigorous, and that is very challenging.
    But, in the end, as I mentioned before, the effective 
resolution of the controversy was when the National Academy of 
Sciences conducted a major study looking at all the proxy data 
sets, all the methods that had been used to interpret them. 
Their results, published in 2006, led to the conclusion which I 
mentioned before. In fact, it was even a little stronger than 
the conclusion I mentioned before. They said it was highly 
likely that the temperature increase of the 20th century was 
unprecedented in the last 2,000 years.
    There was some greater degree of bumpiness in some of the 
proxy records than the 1998 Nature publication had included. So 
it was kind of a warped hockey stick, but still a hockey stick.
    The Chairman. Okay. Thank you, Dr. Holdren.
    And, Dr. Lubchenco, there has been a, kind of, a series of 
stories going around, making the rounds, that the planet is 
actually not warming but cooling, and that evidence over the 
past decade indicates that we are in a cooling period and not 
in a warming period, historically.
    What would your response to that be?
    Ms. Lubchenco. If you look carefully at the climate 
records, the warming that has occurred is not gradual, it is 
jerky. And you get periods of time where there are steep 
increases and other times where it is relatively flat, other 
times where there are slight dips. And the key point here, I 
think, is to really understand global trends you need to look 
at long enough periods of time that you get a clear signal. It 
is quite possible to have a decade in which you see very little 
change, but if you look at the entire century, you see some 
remarkable changes.
    And, in fact, if I could have the slide that I brought--I 
was hoping someone would ask this question, so thank you, Mr. 
Chairman, for doing so. And what you will see on this slide are 
the actual temperature data from, if it will boot, from--thank 
you.
    You see here, on the far right, data from the last decade--
whoops, that is not what it was supposed to do. Can we do that 
again?
    Okay. So what I wanted to do--yes, okay. So let's just do--
yes, stop right there. Can you go back one? There you go.
    Okay. So this is the most recent data trend. And if you 
take just that period of time, there is no discernible, no 
obvious trend in that. If you then go and take a longer 
interval of time--next one, please--and keep going back through 
time, you see more and more information that gives you a better 
sense of what the actual, real overall trend is.
    And so, in that entire record, it is possible to have some 
ups and some downs. The point is that the overall record is an 
upward trajectory.
    The Chairman. Thank you, Dr. Lubchenco, very much.
    My time has expired. The Chair recognizes the gentleman 
from Wisconsin.
    Mr. Sensenbrenner. Well, thank you very much, Mr. Chairman.
    I want to go back to the e-mails that ended up being placed 
in the public record. And I don't want to get to whether or not 
they were legally placed in the public record; the question is 
whether or not they were accurate. Because if they were 
accurate, it is profoundly disturbing, and it does end up 
putting into question all of the science of climate change.
    Now, the data from the Climate Research Unit at the UEA in 
England is one of only three major data sets, but they 
considerably overlap. And they have been used as a basis for 
the IPCC report, as well as the U.S. Global Change Research 
Program. And that means that these two booklets that were 
passed out this morning, you know, at best, need to have a 
thorough review in the light of this information that has been 
disclosed. And, at worst, it is junk science, and it is a part 
of a massive international scientific fraud.
    Now, Dr. Holdren, you have been in the middle of a lot of 
this. And I have a couple of questions based upon your 
statements before you joined the Obama administration.
    You gave an interview in August of 2006 with BBC News in 
the UK. And you said that a sea-level rise of up to 13 feet was 
in the realm of possibility. However, that is 11 feet higher 
than what the IPCC has estimated over this period of time, 
which is somewhere between seven and 23 inches.
    Now, with respect to the hockey-stick theory, which the 
chairman has referred to, that has been pretty much discredited 
in the scientific community. And yet, in your October 13th e-
mail, which is now in the public record, you aggressively 
attacked the two scientists that put this together, a Dr. 
Willie Soon and a Dr. Sallie Baliunas, for that.
    Now, I think it is pretty clear that, in both cases, you 
were wrong. And I guess I would like to know if you are 
concerned, now that you are in the White House and representing 
all of the public, whether you are concerned about the 
misrepresentation of the state of science with respect to 
global warming.
    And I would also like to know if you still support the 
principal critic of those who trashed the hockey-stick theory, 
and that is a Dr. Michael Mann, knowing of his efforts now to 
hide his data and to encourage his colleagues to shut out 
journals like Climate Research to publish works contrary to his 
own bias.
    Mr. Holdren. Congressman, let me try to take those in the 
order you asked them.
    And the very first part of your statement, with respect I 
would disagree with you that this current uproar calls into 
question all of climate science. I do not believe that it 
remotely does that----
    Mr. Sensenbrenner. Well, sir, I didn't say that. I said it 
ought to be looked at again. And, you know, there is increasing 
evidence of scientific fascism that is going on. And I think, 
as policymakers who are making decisions about the state of the 
American economy for the next several generations, that we 
ought to have accurate science. And it appears there is enough 
question on whether the science we have is accurate. That has 
to be resolved, and I wish we could have done it in this 
hearing, but the chairman wouldn't let us. But go ahead.
    Mr. Holdren. I very much agree that we need to resolve the 
current issue. It is important to understand what has really 
gone on here, to get to the bottom of it. As I indicated 
before, that has been one of the strengths of science over the 
years, the capacity to get to the bottom of the controversies 
that emerge. And I believe we will get to the bottom of this 
one.
    But the key point is, however this particular controversy 
comes out, the result will not call into question the bulk of 
our understanding of how the climate works or how humans are 
affecting it.
    You mentioned an interview of mine a few years ago in which 
I talked about the possibility of a sea-level rise in this 
century as much as 13 feet. That was based upon scientific, 
peer-reviewed publications that appeared in the early 2000s 
that indicated that, over geologic time in periods of natural 
climate change, there had been episodes in which the rate of 
sea-level rise increased by as much as two to five meters per 
century, and that this could not be ruled out at the 
temperatures for which we were heading in the 21st century as a 
result of our activity----
    Mr. Sensenbrenner. But you are still 11 feet above what the 
IPCC is recommending.
    Mr. Holdren. Sir, if you will----
    Mr. Sensenbrenner. My time is almost up, and I would just 
like to, you know, say that there is an awful lot of scientific 
McCarthyism, meaning name-calling, going on. Because I quote 
from your e-mail of October 13th, 2003, saying, ``Doing this 
will reveal that Soon and Baliunas are essentially amateurs in 
the interpretation of historical and paleoclimatology records 
of climate change.''
    You know, you are not dealing with their issue, you are 
calling them names. And I think we ought to get to the bottom 
of this without having the name-calling. And I wish that you, 
as the President's science advisor and a former employee of one 
of the most distinguished universities in the world, would be 
able to get beyond the name-calling and get to it.
    My time is up, and I yield back.
    Mr. Holdren. I would be happy to answer all of the 
congressman's questions, if I am allowed.
    The Chairman. You will be given enough time, but let me 
turn right now and recognize the gentleman from Washington 
State, Mr. Inslee.
    Mr. Inslee. It is continually stunning to me that people 
can sit and watch the evidence before their eyes of what the 
seas are going to look like in a century that might melt 
pteropods and somehow blow that off and be more interested in 
e-mails from London. It is interesting to me.
    And the only way I have been able to understand is it is 
that some people believe there is a massive global conspiracy 
that is intent on world domination associated with phonying up 
information about pteropods and the fact that the Arctic is 
melting.
    So I just want to ask you if you are part of that massive 
international conspiracy. Are either one of you members of the 
Trilateral Commission, SPECTRE, or KAOS? I just need an answer.
    Mr. Holdren. Congressman Inslee, I am not a member of any 
of those organizations, and I do not believe that there is a 
conspiracy.
    It would be an amazing thing, indeed, if the academies of 
science of virtually every country in the world that had one 
and if the Earth and planetary sciences departments in every 
major university that had one around the world were all 
engaged, together with the United Nations Environment 
Programme, the Intergovernmental Panel on Climate Change, and 
all the other bodies that have reviewed this matter, in a 
conspiracy.
    That really defies imagination, that the great bulk of the 
scientific community all around the world looking at these 
matters has come to the same conclusion.
    Mr. Inslee. Well, I will just tell you how I look at this. 
The National Academy of Sciences has looked at this in great 
detail, in great summary, from a wide variety of data sets, not 
just from the individuals who wrote the e-mails but, in fact, 
from a wide variety of data sets, including information 
generated by NASA and NOAA and a whole host of United States 
agencies. And they concluded that, in fact, both there are 
changes in the atmospheric climate and that there is increasing 
acidification, or at least NOAA has, associated with 
CO<INF>2</INF>.
    If that is true, isn't it fair to categorize, as much as we 
want to get people to use the right language in their e-mails, 
that this is a tempest in the teapot coming out of England? 
Isn't that a right characterization of this?
    Mr. Holdren. Well, I think we need to wait until all the 
facts are in to find out exactly what some of these e-mails 
mean, in terms of how the scientists in question behaved. I 
mean, I would point out that scientists are human, and, from 
time to time, they experience frustration, anger, resentment. 
And, from time to time, they display defensiveness and bias and 
even misbehavior of some kind. They are like any other group of 
human beings, they are subject to human frailties.
    I think the facts are not entirely in on this particular 
case as to how much and what kinds of frailty might have been 
displayed here.
    But the key point is that, when we get to the bottom of it, 
no matter how it comes out, the great bulk of the data on which 
our understanding of the climate system rests will not have 
been affected. And our basic understanding of where we are, 
where we are headed, and by how much we would need to change 
course to avoid really unfortunate consequences will not have 
changed.
    Mr. Inslee. And let me ask you, is there anything about 
these e-mails that affect ocean acidification at all, Dr. 
Lubchenco?
    Ms. Lubchenco. Congressman, I haven't read all of the e-
mails, but I have seen nothing in them, in those that I have 
read, about ocean acidification. It really is not an area that 
is something that that particular research group was focused 
on.
    And, in my view, the e-mails really do nothing to undermine 
the very strong scientific consensus and the independent 
scientific analyses of thousands of scientists around the world 
that tell us that the Earth is warming and that the warming is 
largely a result of human activities.
    Mr. Inslee. So, let me, if I can--I have some concerns 
about the state of our science that are reflected in the fact 
that everything that I am reading suggests that the predictions 
were not sufficiently dire as to what we are experiencing.
    Now, I am not a scientist, as you are, but it seems to me 
the evidence that I am seeing come in--I am looking at this 
Copenhagen Diagnosis report I made reference to in my opening 
statement-- that the Arctic ice sheets are melting much more 
fast in the summer than we anticipated, that there has been a 
40 percent greater than average ice sheet melt than predicted 
in the IPCC report in 2006, that we have seen an increasing 
rate in sea rise than was expected.
    And, to me, just my lay approaches, the evidence seems to 
be coming in, in the last 24 months, either on the direst end 
of the spectrum that was considered or outside of that 
spectrum. Is that a fair characterization of a huge data set, 
or what are we to make of this?
    Mr. Holdren. Well, let me, Congressman, take the 
opportunity of this particular question to answer part of 
Congressman Sensenbrenner's, because he referred to the IPCC's 
finding in its fourth assessment report about sea-level rise.
    In that report, the IPCC made clear that they were only 
considering the thermal expansion of seawater and a small 
contribution from the melting of mountain glaciers in their 
sea-level rise estimate for the 21st century, leaving out 
deliberately the mechanism thought to have caused the more 
rapid rises in sea level that have occurred from time to time 
in the geologic past.
    And the reason they left out those mechanisms that are 
capable of causing more rapid sea-level rises, they explained 
in their report, was that we do not yet understand those 
mechanisms well enough to model them and arrive at the sort of 
quantitative conclusion that the IPCC was emphasizing. And, in 
addition, we didn't know at that time, we didn't have enough 
data to know whether, on balance, the Antarctic ice sheet, the 
larger of the two, was gaining mass or losing mass.
    Since that IPCC report, there has been a great deal of 
additional work on these questions. We now know that both the 
Antarctic and the Greenland ice sheet are losing mass. We know 
that the rate of sea-level rise today is more than twice the 
rate of sea-level rise averaged over the 20th century.
    And the current best estimates of the peak sea-level rise 
to be expected in this century are one to two meters. That is 
not as high as my number from 2006. The advancing science has 
ruled out the high end of that range. But it makes me wrong in 
2006 by about a factor of two. And it makes the IPCC wrong by a 
much larger factor, by which their numerical estimate 
understated the possible rise of sea level in the century we 
are now in.
    Mr. Inslee. Doctor.
    Ms. Lubchenco. Congressman, let me just add to that that 
the scientific assessment process that the IPCC uses or that 
National Academy of Sciences uses are inherently conservative. 
And scientists are, by and large, fairly reluctant to make 
statements that they can't back up without good data.
    And I think the sea-level rise example is a classic case in 
point. Scientists knew when they were projecting a 23-inch sea-
rise increase by the end of the century that there were 
important factors that they couldn't account for, but they 
couldn't include them because they didn't understand them well 
enough. And so they erred on the side of caution.
    And I think we see this over and over in many of the IPCC 
conclusions. They are inherently conservative. And so, when the 
reality plays out, it is sometimes more than what was predicted 
because of that need to have agreement and levels of certainty.
    Mr. Inslee. Thank you.
    The Chairman. Great. The gentleman's time has expired. The 
Chair recognizes the gentlelady from Michigan.
    Mrs. Miller. Thank you very much, Mr. Chairman.
    And I have listened very closely. I think it is all very 
interesting listening to you all and some of the other 
questions, as well, from members of the panel here.
    I am not a scientist, but I don't question that the Earth 
climate is changing. You know, we used to have dinosaurs, and 
there is still a lot of debate about what happened to the 
dinosaurs. Then we had the Ice Age; there was a lot of debate 
about what happened during the Ice Age.
    I was noticing an article in one of our papers just the 
other day. They are doing some studies in Lake Superior along 
the Pictured Rocks, and they are indicating that they think a 
couple of thousand years ago the water levels there could be 
anywhere as much as 50 or 60 feet higher than they are 
currently.
    So the climate of the world is never static. It is never 
going to be static. The climate is going to change. And, for 
me, the question is, as you say, the science is--I am 
paraphrasing what Dr. Lubchenco said--that the science is 
incontrovertible, that it is unequivocal, that the climate 
change is human-induced or human-produced. And that is the 
question that I am struggling with.
    That is why I think all of these e-mails coming out are 
very interesting. I think it is unfortunate that anybody that 
questions the ideology, the absolute science that man is 
creating all of this is somehow--that we don't care about the 
planet, I mean, it is ridiculous. And I think it is unfortunate 
that that happens. But, whatever.
    I do think that the question, as I say, for me is whether 
or not it is human-induced, particularly when this Congress has 
been travelling down a path with cap-and-trade legislation that 
is going to, in my opinion, decimate the American economy and 
that of my State.
    I think that we look at these e-mails--and, you know, it is 
an attempt, in many cases, just to silence any dissent, which I 
think is very unfortunate. And I will just read one. I am not 
sure if the ranking member read this previously.
    But here is one. You know, there weren't e-mails during the 
Dinosaur Age, by the way, either, or the Ice Age. But here is 
an e-mail saying, ``I think we need to stop considering the 
Climate Research journal as a legitimate peer-reviewed journal. 
And perhaps we should encourage our colleagues in the climate 
research community to no longer submit to or cite papers in 
this journal.''
    How ridiculous. How unfortunate that here is this Climate 
Research journal that, if they question the incontrovertible 
science, that they are, you know, just dismissed and made to 
feel as though, you know, they can't even question this. I 
think it is a travesty.
    And I do recognize that the e-mails are an inconvenient 
truth, perhaps are an embarrassment, particularly on the brink 
of Copenhagen. But I think one of the most important jobs of 
the Congress is to exercise its oversight responsibilities. And 
because of these e-mails, because, in my opinion, there is at 
least a debate, a debate on whether or not climate change is 
human-induced or man-produced--for instance, I was just reading 
the other day that, in Indonesia, where the peat moss is 
naturally composting, that that is the third-largest producer 
of carbon dioxide in the planet, more so than many other kinds 
of things. I am not sure how our cap-and-trade legislation is 
going to address that. You know, as I say, the climate is never 
going to be static.
    So, with that, Mr. Chairman, I guess I would just use my 
time here again to ask that this committee consider a hearing 
into this climate-gate debate that is exploding around us.
    And I would also ask of Dr. Holdren, who made a comment--
you said that you thought that the uproar should be resolved. 
And I guess I would just ask you, how? Do you think we could do 
that without completely being dismissive of anyone that would 
ask such a question, in light of all of these e-mails? And how 
would you think it could be resolved with the best transparency 
and with the interests of the American people and our economy, 
certainly, at heart?
    Mr. Holdren. Absolutely, I think it can be resolved. And I 
think it can be solved without name-calling and without being 
dismissive. Notwithstanding occasional exceptions, there is a 
long history of respectful and civil debate among scientists 
who have differing views on many of the details of virtually 
any issue.
    In this particular case, one already sees a very 
substantial amount of activity of scientists who are going to 
be looking at these data, who are going to be looking to try to 
understand what the e-mails are really saying, who are going to 
reexamine the questions that were at issue then.
    I think there is no question that this will happen whether 
or not this committee or any other holds a hearing on the 
subject. That is the way the science community works. When 
results are called into question, scientists flock to the 
scene, as it were, in order to figure out what was really going 
on there and what the best approximation to the truth we can 
get at at the current state of understanding is.
    And that is current constantly changing. One needs to 
understand that, as new information becomes available, anybody 
who is a good scientist looks at the new information in the 
context of the old information and tries to develop a better 
picture of what is happening. I believe that that will happen 
here.
    Ms. Lubchenco. Congresswoman, may I offer a comment?
    Mrs. Miller. Certainly.
    Ms. Lubchenco. Could I draw your attention to page 6 of 
this document? There is a figure here that I think addresses 
the very important question that you asked earlier. And that 
is, what is the human contribution to global climate change, 
and how do we know if humans are having an influence?
    You are absolutely correct that climate has changed a lot 
in the past. We have good evidence of that. We have been able 
to model those changes and understand more through time about 
what the natural changes are and what factors are influencing 
them.
    This particular figure shows what the climate would be 
doing without the additional carbon dioxide that humans have 
put into the atmosphere, along with other greenhouse gases. And 
that is what is shown in this blue--the dark blue band. This is 
1900 to 2000.
    Mrs. Miller. If I could, I know my time has expired. Let me 
just ask you, does that graph take into consideration what is 
happening in Indonesia? And do you consider what is happening 
in Indonesia man-induced?
    Ms. Lubchenco. There are many sources of carbon dioxide, 
some of which are natural and some of which are a result of 
changes in land-use practices, so they are affected by human 
activities, as well as burning of fossil fuels.
    And these kinds of analyses take into account our current 
understanding of the sum total of emissions from multiple 
sources. And they tease apart what is the human contribution 
from what would be happening naturally. And there is clear 
evidence that what is happening now is strongly influenced by 
human activities.
    Mrs. Miller. I am not sure if that was a yes or no, but my 
time has completed. Thank you very much.
    The Chairman. The gentlelady's time has expired.
    The gentleman from Oklahoma, Mr. Sullivan.
    Mr. Sullivan. Thank, Mr. Chairman.
    And thank you both for being here.
    I was going to ask first about the e-mails too. Do you 
think the scandal--and there seems to be a culture of 
corruption in the scientific community right now on these e-
mails and manipulation of data, for a purpose to get their own 
results, do you see that as a problem, yes or no?
    Ms. Lubchenco. Congressman, I don't believe that the 
exchanges that you saw are typical of the broader scientific 
community.
    Mr. Holdren. I would add that I, too, do not believe that 
these e-mails are remotely sufficient to demonstrate a culture 
of corruption in the scientific community. They are e-mails 
from a relatively few people involved in a particular 
controversy that was attended by a good deal of frustration and 
anger. And as to exactly what went on in the way of 
manipulation of data, I think that remains to be seen.
    To the extent that there was manipulation of data that was 
not scientifically legitimate--and I emphasize that scientists 
manipulate data all the time in order to make them 
comprehensible and consistent. But if there was manipulation of 
data that was not scientifically legitimate, yes, I regard that 
as a problem, and I would denounce it.
    And I think, again, that the merit of the scientific system 
is that, over time, it tends successfully to unearth those 
kinds of instances, to unmask them, and to correct them. That 
is what I assume will happen here.
    Mr. Sullivan. Well, since we do now know that some people 
are manipulating data and are trying to pervert the system for 
this final analysis, do you both support an independent 
investigation into this?
    Mr. Holdren. I am not sure an independent investigation, if 
you mean by the Congress of the United States, is the right way 
to get at scientific truth. I think the scientific community 
has well-established mechanisms for doing that, and I believe 
they have already been set in motion by these disclosures.
    We will find out what went on there. It is not clear, at 
this point--I haven't read all the e-mails either. It is not 
clear, at this point, what some of them mean. I would point 
out, for example, that the term ``trick'' is often used in 
science to describe a clever way to get around a difficulty 
that is perfectly legitimate. The use of the word ``trick'' 
does not, in itself, in science demonstrate that there was 
manipulation.
    I think we need to hear all sides of the story before we 
decide what happened there. If it turns out there was improper 
manipulation, again, I would denounce it, and I would be 
grateful that the scientific process had run its course and 
disclosed it. If this committee or others want to have hearings 
that end up calling as witnesses people, scientists who are 
involved in trying to sort that out, I think, of course, that 
is fine.
    Mr. Sullivan. Now, both of you are scientists. What is 
the--we were talking about manmade and natural causes of 
CO<INF>2</INF>. If you could just, really quickly, simply break 
down how much is manmade and how much is natural, percentage-
wise?
    Mr. Holdren. Well, first of all, what you need to 
understand is the natural flows of carbon dioxide in and out of 
the atmosphere--out of the atmosphere by photosynthesis and by 
absorption in the oceans, back into the atmosphere from 
outgassing from the oceans and by the decomposition or 
combustion of organic matter--have largely been in balance for 
a long time.
    They are currently in the range of something like seven or 
eight times the human input. But the problem is that the 
natural input and uptake has been in balance and the human 
input has driven the system out of balance and is leading to an 
accumulation of additional carbon dioxide in the atmosphere.
    This is extremely well-understood scientifically. Nobody 
disputes this particular point in science.
    Mr. Sullivan. But it is at least seven or eight times 
greater than the manmade cause.
    Mr. Holdren. Yes, but it is in balance. It is in and out. 
And so, the fact that the flows are greater----
    Mr. Sullivan. Here is one on these sea creatures and 
everything. It says that the ocean absorbs approximately 25 
percent of the CO<INF>2</INF> to the atmosphere from human 
activity each year. So if seven or eight times more is 
naturally caused, if you eliminate the human beings from the 
Earth and all human activity, would ocean acidification still 
occur? It wouldn't?
    Mr. Holdren. It would for the time required to take the 
excess out of the atmosphere that has accumulated there. In 
other words, the oceans are not yet in equilibrium with what we 
have done to the atmosphere, but they will get there.
    Ms. Lubchenco. Congressman, I think what you are asking is, 
if humans were not putting more carbon dioxide into the 
atmosphere, wouldn't the oceans already be absorbing some? And 
the answer is yes, but they would also be using some of the 
carbon dioxide, and it would be in balance.
    What is different now is that humans have contributed now 
about 30 percent of the carbon dioxide that is in the 
atmosphere. And some of that has been taken up by oceans, 
making them more acidic.
    Mr. Sullivan. But isn't one of the ocean one of the biggest 
emitters?
    Ms. Lubchenco. The oceans and the land both release 
CO<INF>2</INF> and take it up. And that process has been in 
balance over millennia, and that continues. What is happening 
is that humans are adding more to the atmosphere and more to 
the oceans. So the total amount of CO<INF>2</INF>, it is being 
redistributed because of our activities.
    Mr. Sullivan. So if 97, 96 percent of the emissions are 
natural and 4 percent are manmade, we have a responsibility for 
that 4 percent. But even if we eliminated it, isn't it a little 
arrogant to think that we could manipulate the entire process?
    Ms. Lubchenco. We have manipulated the entire process. I 
think that is the point.
    Mr. Sullivan. Oh, I know you have, on the numbers and 
stuff.
    Ms. Lubchenco. So human activities have----
    Mr. Sullivan. You have said that you guys can make any 
data--I know that. I see it in my opponents with polling data. 
I know how that works. But----
    Ms. Lubchenco. These are not data that somebody has pulled 
out of the air or out of their heads. They are measurements.
    Mr. Sullivan. You also have said that fish have moved to 
warm spots, and they are moving--it is in the Atlantic. You 
said the fish are moving?
    Ms. Lubchenco. Yes, sir.
    Mr. Sullivan. Okay. Don't they always move to a warmer 
spot?
    Ms. Lubchenco. What is changing in the oceans is where it 
is warm.
    Mr. Sullivan. But doesn't that--it does change. I mean----
    Ms. Lubchenco. Many fish move. Most fish and many other 
species stay in the type of water in which their physiological 
performance is the best.
    What we are seeing now is that, because oceans are warming 
overall, the places--if you look at a place on the coastline, 
for example, in California, the places that used to be a 
certain temperature are now warmer. And so, species that used 
to live there are moving northward to stay in the temperature 
zone that they would have been in previously. So species are 
moving in response to the changing distribution of heat in the 
ocean.
    Mr. Sullivan. And, Doctor, you said in your testimony, or 
you stated before that sea levels----
    The Chairman. The gentleman's time has expired----
    Mr. Sullivan. Thank you, Mr. Chairman.
    The Chairman. You can complete your question, if you would 
like.
    Mr. Sullivan. Oh. At sea levels, with the data you have 
interpreted, will rise 11 feet by the year----
    Mr. Holdren. No, I did not say that. I said that was a 
possible outcome, an upper limit on the amount of sea-level 
rise based on understanding of the processes that was available 
at the time.
    It is now considered that the upper limit on sea-level rise 
in this century is about two meters or a little over six feet. 
And that is what I now say because that is what the current 
science says.
    The Chairman. The gentleman's time has expired.
    Six feet does sound like a very large increase in the water 
levels of the planet.
    The gentlelady from Tennessee, Mrs. Blackburn.
    Mrs. Blackburn. Thank you, Mr. Chairman.
    And I want to thank each of you for submitting your 
testimony in advance.
    We have had multiple hearings this morning for the Energy 
and Commerce Committee, so I have been upstairs in a mammogram 
hearing over the controversy that came there.
    And I do have a statement, Mr. Chairman, that I will submit 
for the record.
    The Chairman. Without objection, it will be included.
    [The statement of Mrs. Blackburn follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mrs. Blackburn. And since I didn't give that, I will just 
take all of my time in questions. How is that?
    But, Dr. Holdren, I wanted to talk with you. I was 
delighted that you were here. Some of the e-mails that have 
come out recently from CRU indicate some animosity, I guess 
would be the best way to describe it, in research for the 
medieval warm period, the research by Dr. Soon.
    And I wanted to see if you would elaborate on your 
intentions in those e-mails.
    Mr. Holdren. The great bulk of scientists who have looked 
at these questions concluded a long time ago that the medieval 
warm period was a regional phenomenon and not a global 
phenomenon.
    The arguments by Soon and Baliunas, to the contrary, fared 
very badly in the scientific community, in terms of the rigor 
and validity of their arguments. And that is the reason that 
they were often disparaged in discussions of this matter, in 
particular because they continued to espouse the view that the 
medieval warming period was a global phenomenon long after 
evidence to the contrary became persuasive to everyone else.
    One of the characteristics one expects of scientists is to 
change their mind when data and analysis show that they were 
wrong the first time. I changed my mind about the maximum sea 
level possible in the 21st century when the analysis and the 
data changed. And that is what we expect from others. When that 
doesn't happen, a degree of frustration and anger often 
materializes because of a concern that people are simply 
muddying the water by repeating discredited hypotheses.
    Mrs. Blackburn. Okay. Well, let's apply that statement, 
then, looking at the climate change data that has been lost. 
And do you think that the climate change data has been 
compromised since there was original data lost by CRU?
    Mr. Holdren. Yeah, I think that is unfortunate. Whenever 
any original data are lost, that is a misfortune. It is 
unfortunate that it happened. I wish it had been prevented.
    I think the robustness of all of the data sets we have 
available to us is sufficient to survive that loss, but I do 
regret the loss.
    Mrs. Blackburn. Well, if further review on all of this 
shows that the IPCC report in 2007 used corrupted or tainted 
data, what do you think they ought to do about it? Should they 
be willing to go back and say, ``You know, we are going to have 
to change our mind on this because we used corrupted data or we 
didn't give the whole picture or science; if you look at the 
whole thing, it proves us wrong''?
    Mr. Holdren. To the extent that it is shown that data were 
corrupted and influenced conclusions of the IPCC, of course 
those conclusions should be revised. And the IPCC, in every 
successive report that it produces, which is roughly every 5 
years, revises a whole variety of conclusions it reached in the 
previous assessment because new information has become 
available.
    It is, of course, unfortunate if the new information that 
becomes available is that data that were previously used were 
corrupted. But, in terms of the outcome, the revision of the 
findings based on new information is the same. Scientists do 
that all the time. The IPCC does it, and they will do it. If it 
is determined that any conclusion of the IPCC was based on data 
that were corrupted, you can be sure that those conclusions 
will be revised in the next assessment.
    Mrs. Blackburn. We have done some hearings, I think it was 
in 2005, we did some hearings in the Energy and Commerce 
Committee on the hockey-stick theory and Dr. Mann's hockey-
stick theory. And I know Dr. Wegmann and the National Academy 
of Sciences have made comments that Dr. Mann didn't use proper 
statistical methods in his research on that. What is your 
opinion there?
    Mr. Holdren. I think there is reason to believe that some 
of the statistical methods that Dr. Mann used were not the best 
for the purpose. The Academy pointed that out. And it, 
nonetheless, concluded that his basic finding that the last 50 
years were the warmest half-century in the last 1 to 2,000 
years was nonetheless robust.
    And, again, I would point out that arguments about what are 
the best statistical techniques to use are pervasive in the 
scientific community. And it is no surprise that one has a 
difference of opinion. It is no surprise that a scientist may 
have made a mistake in the method chosen to analyze a 
particular data set. Again, the key thing about science is not 
that scientists are always right; it is that they fix their 
mistakes over time.
    Mrs. Blackburn. Well, let me ask you this. I know that some 
of the scientists who have come before us and they advocate 
limiting greenhouse gas emissions also have stated they think 
that maybe the global temperatures have stopped rising over the 
past 10 years even though the greenhouse gas emissions have 
increased.
    So how do you go about explaining that discrepancy, when 
you look at what is natural, what is manmade, what is cyclical, 
how do you explain that?
    Mr. Holdren. Well, first of all, I think, Congresswoman, 
before you came in, Dr. Lubchenco explained a diagram that is 
on the board that actually addresses that question.
    And the key point is that the climate and the surface 
temperature of the Earth fluctuates all the time for a wide 
variety of reasons, most of them natural. What we are seeing is 
superimposed on those natural fluctuations a long-term trend of 
increasing global average surface temperature of the magnitude 
and of the sort expected to result, according to both theory 
and models, from the increases in carbon dioxide and other 
heat-trapping substances that humans have imposed on the 
atmosphere.
    If you look at the actual temperature data--and I have in 
front of me the NOAA data set for the global average surface 
temperatures through 2008--what you see is that 9 of the 10 
warmest years in the 140-year thermometer record, the period of 
time since 1880 when we have had enough thermometer 
measurements around the land and the ocean to meaningfully 
define a global average surface temperature, 9 of the 10 
warmest years in that period occurred since 1998. 1998 itself 
was the second warmest year in the record; 2005 was the first 
warmest. All 15 of the warmest years in the 140-year record 
occurred since 1990.
    You look at the numbers, you do see a bump, as you see up 
there on the screen in the far right, where, in the last few 
years, there is no discernible upward trend. But this is 
completely consistent with having natural fluctuations, natural 
ups and downs superimposed on a long-term warming trend 
associated with greenhouse gases.
    The Chairman. The gentlelady's time has expired.
    Mrs. Blackburn. Mr. Chairman, can I ask one other part on 
the question?
    The Chairman. We will have a second round. The gentlewoman 
went 8 minutes on the--8 minutes and 15 seconds.
    Mrs. Blackburn. Thank you, Mr. Chairman.
    The Chairman. The Chair recognizes the gentleman from 
Washington State.
    Mr. Inslee. Dr. Holdren, you have testified several times, 
listening to you, that, given the extensive review by the 
National Academy of Science and using information based from 
NOAA, NASA, and a whole host of other data sets, that there is 
no reason to revise their fundamental conclusion that humans 
are contributing to changing climate, and NOAA not to change a 
fundamental conclusion that the oceans are becoming more 
acidic.
    Mr. Sensenbrenner suggested that there is some scientific 
fascism, and that is a quote. Is there any evidence of fascism 
in the NOAA organization, of scientific fascism associated with 
this?
    Mr. Holdren. I am not even sure exactly what that term 
would mean, but I don't--I am not aware of any cabals, 
conspiracies, misbehavior in the characterization and use of 
data in NASA or NOAA.
    Mr. Inslee. Well, I tell you, it is troublesome to me the 
people who put the men on the moon, the people who discovered 
water on the moon, the people who are doing great research 
figuring out how the oceans are becoming acidic, some of whom 
are my constituents, it is disturbing to me that people would 
come to this chamber and call them fascists. I have to tell 
you, I have a problem with that. I don't think that is right.
    These men and women are doing the best they can to provide 
us data and conclusions to the best of their ability. And they, 
through their professional work, have reached a very, very 
strong consensus on these scientific issues, who are working 
for Uncle Sam. And I think that is wrong to say that about 
them.
    And there is a little emotion in my voice because I have 
seen in my neighborhood what this phenomenon is doing. I would 
like to be able to catch salmon, and my grandkid--who 
celebrated his first birthday Sunday--to catch salmon that live 
on pteropods maybe 50 or 60 years from now. And when people 
watch what I watched and say that this is just a big scientific 
fascist conspiracy that are ginning this stuff up, I have a 
problem with that.
    I will just ask you, Dr. Lubchenco, I was at a pier in 
Seattle about 6 months ago when a NOAA ship docked. And it had 
a bunch of NOAA scientists on it who were investigating the 
rate of acidification off the Pacific coast.
    And when they were explaining to me their findings, their 
jaws were kind of agape, because what they told me is that the 
rate of acidification was stunning to them, particularly in the 
shallow waters off our Pacific coast. They explained to me, as 
I understand this correctly, the waters are more acidic the 
lower in the water column they have been, but now very acidic 
levels are becoming very close, within 150, 200 feet of the 
surface.
    And this was shocking to them. And the only explanation 
they had was that CO<INF>2</INF> was going into the atmosphere 
and disturbing the equilibrium of this process. It has been 
going on for eons.
    Could you tell us about what your information is about 
that?
    Ms. Lubchenco. Mr. Congressman, I think the rate of change 
in ocean acidification has surprised many people.
    And it is absolutely the case that off the west coast of 
the United States, where winds blow along the coastline and 
push the surface waters away from the coast, which pulls up 
cold, nutrient-rich, low-oxygen, and lower-pH water to the 
surface, that that is where we are seeing some of the greatest 
increases in acidity happening around the world.
    And it is of deep concern because those areas, as you well 
know, are historically very, very rich. Our wonderful 
productive fisheries off that area are, in large part, a 
consequence of this upwelling.
    Mr. Inslee. I appreciate that.
    I want to ask, is there anybody in this room, including the 
two witnesses and my Republican colleagues and my Democratic 
colleague, is there anybody in this room who has information to 
suggest that the oceans are not becoming more acidic? Has 
anybody got information like that? Anybody?
    Has anybody got an explanation why the oceans are becoming 
more acidic, other than the fact that there is massive amounts 
of carbon dioxide going into the atmosphere? Has anybody got an 
explanation for that?
    I haven't heard any, and yet people are trying to gin up 
this controversy because--you know why? It is not because they 
are not intelligent. It is because they are afraid that we 
can't solve this problem. And I think if we had a little more 
confidence in ourselves and our ability to solve this problem, 
we would open our minds to the scientific information that is 
becoming available to us.
    And this idea of equilibrium--I will just try one more--I 
don't know why it is so hard for people to understand the idea 
of equilibrium. To me, it is like this. Is this a fair 
metaphor? A guy goes to a doctor. He says to the doctor, ``I 
gained 10 pounds.'' ``Well, have you changed your behavior at 
all?'' ``Yes. I have started eating a huge banana split at 
lunch and dinner every single day.'' And he goes, ``Well, it is 
obvious. You have been eating more food.'' And he goes, ``No, 
no, it's not the banana split. Look at all the other food I 
have eaten. It is the other stuff. That is 85 percent of my 
caloric intake.''
    That is 85 percent of the CO<INF>2</INF> that is going into 
the atmosphere. Don't look at the banana split, don't look at 
the coal-fired plants, don't look at the cars. Is that kind of 
a metaphor for what we are facing here?
    Mr. Holdren. Not bad.
    Mr. Inslee. Not bad, huh, for an amateur.
    Thank you very much.
    The Chairman. The gentleman's time has expired.
    The Chair recognizes the gentleman from Wisconsin.
    Mr. Sensenbrenner. Well, thank you very much, Mr. Chairman.
    I do appreciate Mr. Inslee's metaphor. But let me say that 
the controversy over the leaked e-mails and their contents 
cannot be ignored, because it goes to the very basis upon which 
this debate has gone on for the last several years. And I see 
an awful lot of attempts by people in this room to shove that 
concern under the rug. I am telling you now, it will get worse 
rather than getting better.
    And I will define what I mean by ``scientific fascism.'' 
These e-mails trash the scientific conclusions by those who 
have disputed Dr. Mann's hockey-stick theory. There are 
information in the e-mails that the publication, Climate 
Research, in which they were published, ought to be boycotted 
because they weren't doing the politically correct thing. And I 
understand that the editor of Climate Research ended up getting 
fired as a result.
    Now, there is intimidation in the scientific community by 
people who wish to be contrary to what the conventional wisdom 
is. And we are being asked as a Congress to make major changes 
in American society in energy use and on how much the out-of-
pocket cost is to every person in this country as a result of 
this debate.
    And we in Congress better get it right. The scientists may 
be able to change their story and do more research on it, but, 
once Congress passes a law, it will be as difficult to repeal 
the consequences of that law as putting milk back into the cow.
    We know all about cows in Wisconsin. Now, the denial has 
not stopped, because 6 weeks ago, on October 27th, Michael Mann 
wrote an e-mail that says in part, as we all know, this isn't 
about truth at all; it is about plausibly deniable accusations. 
We need to know the truth here before we can legislate in the 
name of the American people.
    Now, Dr. Holdren, given the fact that you were involved in 
the e-mail traffic that has been released from the University 
of East Anglia in England and the discrediting of the Soon, and 
I am mispronouncing, Baliunas, study on the hockey stick 
theory, and it has been considerably discredited, how can you 
be objective on this when you are testifying before Congress, 
advising the President, and speaking to the American public?
    Mr. Holdren. First of all, Congressman Sensenbrenner, let 
me say that science is rough. Scientists are brutal in 
criticism. Anybody who has ever taken a doctoral exam in 
natural science understands that very well. So there is nothing 
unusual about strong language in criticizing results of others 
that one has concluded are deeply wrong.
    Mr. Sensenbrenner. But you are defending the results of 
others that have since been proven right.
    Mr. Holdren. Let me finish answering the question----
    Mr. Sensenbrenner. How can you be objective?
    Mr. Holdren [continuing]. If I may. We are all, when we 
testify, doing so on the basis of the best information 
available to us at the time as scientists. The notion that one 
cannot be objective because one has concluded that a particular 
study by particular people was deeply flawed, and that was my 
conclusion from reading the study by Soon and Baliunas, that it 
was deeply flawed, and that has been the conclusion of the 
great bulk of the rest of the community, that being so, I 
cannot be expected to be unbiased as to the merit of that 
particular study. I am biased by study. I am biased by having 
read it, studied it, and understood what is wrong with it.
    Mr. Sensenbrenner. And I respect your opinion on that. But 
it seems to me that other people ought to look into this.
    Now, I want to ask you a question that you can answer yes 
or no. You are the science adviser to the President. And I 
would like to ask you to guarantee Congress that you will 
provide the public, including us, access to all documents 
prepared with government funding relating to science change. 
And that includes studies that the IPCC has either gotten or 
utilized, so that nobody can wiggle out of this by saying that 
the IPCC is exempt from this because they are an international 
body. Will you give us that information and then allow the 
public, including other scientists, to be able to see it? After 
all, the taxpayers have paid for it.
    Mr. Holdren. I am not sure what all you are asking, 
Congressman, but I am absolutely in support of the public and 
the taxpayers having access to the results of research that 
they paid for. The only constraints on that are research 
classified for national security reasons or research that is 
incomplete. It is a problem where people insist on the release 
of data that scientists have not yet even finished assembling, 
because this leads to interpretations immediately on the basis 
of an incomplete picture.
    But once research is complete and is published in the peer-
reviewed literature, or is submitted as a report for use by 
government policymakers, I do believe that all of the data 
behind that, all of the methods, all of the analysis should be 
made available to the Congress, the public, the taxpayers, yes.
    Mr. Sensenbrenner. You will be getting a few letters from 
us to that effect.
    The Chairman. The gentleman's time has expired.
    Let me put up two charts here. The first chart is just a 
chart reflecting what Dr. Lubchenco and you, Dr. Holdren, have 
referred to, which is this dramatic spike which has been 
created in the amount of CO<INF>2</INF> in the atmosphere. This 
seems to be an incontrovertible fact. No one actually denies 
this. It is measurable. And it correlates almost directly with 
the industrialization of not only our country, but Europe and 
increasingly in China and India, as the amount of 
CO<INF>2</INF> emitted globally has increased. And in fact, in 
2009 the trend is that this will be a warmer year than last 
year was. And so the spike is going back up again, if all data 
up until the end of November continues on for the concluding 
month of this year. So we can see this trend. And it has gone 
unabated since the rise of the industrial era.
    Now I will show you another chart. This is a chart of the 
number of 40 home run hitters in Major League Baseball from 
1920 until today. Now, the average was 3.3 players were 
averaging over 40 home runs per year, from 1920 until the 
1990s, which is why Ted Williams and Willie Mays and Babe Ruth 
were so famous that they could hit more than 40 home runs. 
Then, all of a sudden in the 1990s, there was a huge spike in 
the number of people hitting more than 40 home runs. Now Major 
League Baseball said, well, you know, perhaps the players are 
getting stronger. Others said, well, perhaps the baseballs are 
juiced.
    But once a steroid testing program was put in place over 
the last 3 years, an amazing thing has happened. There was a 
precipitous drop in the number of 40 homerun hitters back to 
normal levels. An artificial substance injected into players, a 
huge increase in the number of home runs. But once it was 
removed, we went back to normal levels again. Now, some people 
of course are arguing that the new normal was people hitting 
more than 60 home runs and 70 home runs. Huh? Well, it turns 
out that the testing program brought it down dramatically once 
we dealt with the reality of the science of what was going on 
in baseball.
    Well, here we have the same trend, but we have yet to 
inject the solution, that is the reduction in the amount of 
CO<INF>2</INF> being emitted by the United States, by Europe, 
and by other parts of the world. That is our challenge. It is 
incontrovertible. Artificial substance put into man or nature 
causes big differences. And so these spikes are very, very 
coincidental, huh?
    Now, there were deniers in Major League Baseball. They 
said, oh, no, steroids has nothing do with it. And by the way, 
Major League Baseball wanted to go along with it in the same 
way that the coal industry, the oil industry, other fossil fuel 
industries want to go along with the myth that nothing really 
abnormal is happening. But the consensus of the science in the 
world, the National Academy of Sciences of every country in the 
world is that this spike in CO<INF>2</INF> is manmade and that 
it is causing dramatic changes in our oceans, to our glaciers, 
in the Arctic, in the villages of Alaska that see their 
permafrost melting and their villages falling into the ocean, 
and droughts being created around the world. And all of this 
evidence is basically so massive that there is no way to avoid 
it.
    And so what the minority has decided to do, what the 
deniers, what the oil and coal industry want to do is to use 
the few e-mails of a few people who are doubting this science, 
which is a consensus around the country, as a way of trying to 
cast doubt, the same way Major League Baseball did, on the 
undeniable correlation between the injection of these 
artificial sources into the atmosphere are having on our 
planet.
    And so, you know, we can continue this pretense and we can 
use a small number of e-mails, I suppose, to have a larger 
debate. But I think that it would be better for us to accept 
the science, to accept this curve, to basically deal with the 
reality that the minority has no answer for why it has spiked 
so dramatically, why it is going back up again this year. They 
sit over here using a couple of e-mails as a reason why we 
should stop all efforts to deal with this catastrophic threat 
to our planet. And so since no alternative theory has been 
presented--at least baseball said, well, the players are 
getting stronger, huh, that was their answer, but everyone who 
was looking at it was saying, how can they be so much stronger 
than the players just 5 years ago? Well, that is the same thing 
that is happening with this CO<INF>2</INF> trend. Okay? There 
is no explanation for it, other than that it is manmade.
    And by the way, you can say, well, it is not that big. What 
is the difference? A degree or two. Well, a kid has a 
temperature of 98.6 normally. Well, you add a couple of degrees 
temperature to that child, and they are at 100.6. The doctor 
says, well, you have been at that new normal for 14 days now, 
so don't worry about it, ma'am, your son Joey, he is going to 
be fine. The new normal is 100.6. Well, who would ever accept 
that as an answer because it was only a 2-degree change in the 
child ?
    Well, that is what we have got here for the planet. A 2-
degree change in the overall temperature of our planet is just 
as catastrophic as it would be for a small child who had 
received no medical attention because the doctor had concluded, 
or a small number of doctors would say the child can live with 
the new normal of 2 degrees higher. What parent would ever run 
that risk of not giving treatment to that child? And that is 
what we are talking about here.
    Yes, there is a normal temperature for the planet. But you 
add on 2 more degrees, 3 more degrees, it is catastrophic. You 
get the consensus, as Dr. Holdren is saying, that there is a 6-
foot rise in the sea level of our planet; that is not 
frightening enough for the other side. They want to know why it 
is not 11 feet anymore. Well, 6 feet has such catastrophic 
consequences for Alaska, for the Everglades, for Boston, for 
Cape Cod, for Southern California, that it is almost 
unimaginable what changes would have to take place in our 
country. Okay?
    So what is the answer? Again, we keep saying, what are you 
saying is the answer to why this is spiking so dramatically? 
Where is your evidence? Just by casting doubt with a few e-
mails on a consensus globally and a century-wide study of this 
subject----
    Mr. Sensenbrenner. Would the gentleman yield?
    The Chairman. No, I will not yield at this time--is not 
going to deal with this issue. Okay? These scientists are our 
best people in our country. And they are joined by thousands of 
others, not only here but across the world, in their 
construction of their analysis. There is no alternative theory 
that the minority is proposing other than that which we know 
has been funded by the oil and coal and other industries that 
want to continue business as usual.
    Now, we have tried to construct in the Waxman-Markey bill 
an alternative way in which these issues could be dealt with. 
And they of course don't want to deal with that issue because 
they would prefer their denial.
    What I am going to say to you, Dr. Holdren, if you could, 
is I would like you to go through the other points that you 
would like to make in response to the questions that were 
raised by Mr. Sensenbrenner in his opening question of you.
    Mr. Sensenbrenner. You are a little bit over.
    The Chairman. Which I have allowed all of the minority 
members to do so. And it is the courtesy I have extended to 
each minority member, I am going to extend to myself.
    Dr. Holdren.
    Mr. Holdren. Well, thank you, Mr. Chairman. I think 
actually we have gone through the main points in the further 
discussion of sea level rise. And I wouldn't have anything 
further I feel I need to add.
    The Chairman. Okay, thank you, Dr. Holdren, very much.
    Mr. Sullivan, do you have any additional questions?
    Mr. Sullivan. No, I don't.
    The Chairman. You do not. Okay. Well, then I will allow any 
written questions that would be posed to the witnesses to be 
made by members who were not here.
    We thank our two witnesses for their testimony here today. 
It is extremely valuable at this time in our planet's history 
for the two of you to be working for our country and for the 
world. It is an honor for us to have you here today. We thank 
you for your distinguished service.
    With that, this hearing is--the gentle--Dr. Lubchenco, 
would you like to be recognized?
    Ms. Lubchenco. The gentle doctor? Mr. Chairman, thank you 
very much for this opportunity. I especially appreciate the 
extra time to do this demonstration. And I might draw 
everyone's attention to sort of the final results of the status 
of the chalk in the three different solutions just to bring the 
message back.
    The Chairman. Would you summarize the status in the three 
jars?
    Ms. Lubchenco. The chalk that is in the water only has not 
changed at all. The chalk that is in the half water-half 
vinegar is dissolving. And the chalk that is in the total 
vinegar has dissolved quite substantially, and will continue to 
do so.
    The Chairman. We thank the expert testimony that we 
received today. Again, there is a part of us that really needs 
to go back to sophomore and junior year in high school so we 
can get a briefing once again on the essential science that 
affects our planet. We thank you for everything that you have 
done here today. With that, this hearing----
    Mr. Holdren. And we thank you, Mr. Chairman, and we thank 
the committee.
    The Chairman. We thank you. This hearing is adjourned.
    [Whereupon, at 12:15 p.m., the committee was adjourned.]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
